U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Douglas Kelly v. United States, No. 20-7868
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 26, 2021.
The government’s response is now due, after one extension, on June 28, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 30, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner and counsel for the other respondents do not oppose this further
extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7868
KELLY,DOUGLAS
USA

RICHARD F. MAFFETT JR.
RICHARD F. MAFFETT, JR.
2201 NORTH SECOND STREET
HARRISBURG, PA 17110-0000
717-233-4160
MAFFETTJR@AOL.COM

